                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

                                                                                                              1
    Case Number: A03040014                                                                  Page 1 of 1


                                                                                                              I
        We considered an allegation1that a small amount of text duplicated from a published document
        appeared in a proposal2 submitted by the subject3to NSF. We contacted the authors of the
1       proposal for their perspective.
                                                                                                              I
                                                                                                              I

        The cop1 and PI agreed that the PI alone had composed the proposal. The PI took responsibility
        for the plagiarized text that appears in the proposal. We noted that references to the plagiarized
        author's work appear elsewhere in the proposal. In a final letter to the subject, we emphasized   '
                                                                                                              I
        that use of another's exact words without direct citation is a serious violation of scholarship
        standards, and we emphasized to the subject the need to exhibit the highest standards of
        scholarship in his proposals. We note that this is the subject's first proposal to NSF.

        The strong exhortation to the subject should be sufficient to protect NSF's interests.

        Accordingly, this case is closed.
                                                                                                 .
                                                                                                              I
                                                                                                                  ~
                                                                                                                  I
                                                                                                                  I




         ' redacted.
            redacted.
        3
I           redacted.
